Cardmember Agreement: Part 1 of 2
American Express® Gold Card
Issuer: American Express Travel Related Services Company, Inc.

Fees Table
Fees
Annual Membership Fee
Transaction Fees
● Foreign Transaction
Penalty Fees

$300
2.7% of each transaction after conversion to US dollars.

●

Late Payment

Up to $40.

●

Returned Payment

Up to $40.

CMAEUAOT0000002

Page 1 of 2

As of: 06/30/2021

How Fees Work
Fees

Annual Membership
Late Payment

This fee is on the Rates and Fees Table on page 1 of Part 1. We will charge $65 for up to 5 additional
cards, then $65 for each additional card thereafter.
Up to $40. If you do not pay the Amount Due on a billing statement by the Payment Due Date,
the fee is $29. If this happens again within the next 6 consecutive billing periods, the fee is $40
instead. However, the late fee will not exceed the Amount Due.

Returned Payment

Up to $40. If you make a payment that is returned unpaid the first time we present it to your bank,
the fee is $29. If you do this again within the same billing period or the next 6 billing periods, the
fee is $40. However, the returned payment fee will not exceed the Amount Due.

Returned Check

$38 if you use your card to cash a check at one of our approved locations and the check is returned
unpaid. We will also charge you the unpaid amount.
2.7% of the converted U.S. dollar amount. This fee is a finance charge. See Converting charges made
in a foreign currency in Part 2.

Foreign Transaction

Part 1, Part 2 and any supplements or amendments make up your Cardmember Agreement.

CMAEUFEEPAPR107

Page 2 of 2

FDR 1122676

Cardmember Agreement: Part 2 of 2

Doc 27313

How Your American Express Account Works
Introduction
About your Cardmember
Agreement

This document together with Part 1 make up
the Cardmember Agreement (Agreement) for
the Account identified on page 1 of Part 1. Any
supplements or amendments are also part

of the Agreement. When you use the Account (or
you sign or keep the card), you agree to the terms
of the Agreement.

Changing the Agreement

We may change this Agreement, subject to
applicable law. We may do this in response to
the business, legal or competitive environment.
This written Agreement is a final expression of the
agreement governing the Account. The written
Agreement may not be contradicted by any alleged
oral agreement.

Changes to some terms may require 45 days
advance notice, and we will tell you in the notice if
you have the right to reject a change. We cannot
change certain terms during the first year of your
Cardmembership.

Words we use in the Agreement

We, us, and our mean the issuer shown on page
1 of Part 1. You and your mean the person who
applied for this Account and for whom we opened
the Account. You and your also mean anyone
who agrees to pay for this Account. You are the
Basic Cardmember. You may request a card for
an Additional Cardmember (see About Additional
Cardmembers below).

Card means any card or other device that we issue
to access your Account. A charge is any amount
added to your Account, such as purchases and
fees. A purchase is a charge for goods or services.
To pay by a certain date means to send your
payment so that we receive it and credit it to your
Account by that date (see About your payments
below).

About your card
Eligibility

Eligibility for your Account is limited to residents of Latin America and the Caribbean, excluding Puerto
Rico and the United States Virgin Islands.

Changing residence

You must notify us immediately if you change your residence to a country outside of Latin America and
the Caribbean, excluding Puerto Rico and the United States Virgin Islands.
We may cancel your Account if we determine that you no longer reside in Latin America and the
Caribbean, excluding Puerto Rico and the United States Virgin Islands.

About using your card
Using the card

You may use the card to make purchases. You
may also use the card at an ATM to get cash from
a checking account you designate.
We decide whether to approve a charge based on
how you spend and pay on this Account and other
accounts you have with us and our affiliates. We
also consider your credit history and your personal
resources that we know about.
You may arrange for certain merchants and third
parties to store your card number and expiration
date, so that, for example:

We may (but are not required to) tell these
merchants and third parties if your expiration date
or card number changes or if your account status
is updated, including if your account is cancelled. If
you do not want us to share your updated account
information, please contact us using the number on
the back of your card.
Keep your card safe and don't let anyone else use
it. If your card is lost or stolen or your Account is
being used without your permission, contact
us right away. You may not use your Account for
illegal activities.

• the merchant may charge your account at
regular intervals; or
• you may make charges using that stored card
information.

Promise to pay

Declined transactions

Version 1122676

You promise to pay all charges, including:
• charges you make, even if you do not present your card or sign for the transaction,
• charges that other people make if you let them use your Account,
• charges that Additional Cardmembers make or permit others to make, and
• any amounts guaranteed by the use of the card.
We may decline to authorize a charge. Reasons
We are not responsible for any losses you incur
we may do this include suspected fraud and our
if we do not authorize a charge. And we are not
assessment of your creditworthiness. This may
responsible if any merchant refuses to accept the
occur even if your Account is not in default.
card.

Page 1 of 5

About Additional Cardmembers

At your request, we may issue cards to Additional
Cardmembers. They do not have accounts with us
but they can use your Account subject to the terms
of this Agreement. We may report an Additional
Cardmember's use of your Account to credit
reporting agencies.
You are responsible for all use of your Account by
Additional Cardmembers and anyone they allow
to use your Account. You must pay for all charges
they make.
You authorize us to give Additional Cardmembers
information about your Account and to discuss it
with them.

If you want to cancel an Additional Cardmember's
right to use your Account (and cancel their card)
you must tell us.
If an Annual Membership fee applies for an
Additional Card, please refer to the refund policy
disclosed in the Closing your Account sub-section
of your Cardmember Agreement. If a single
Annual Membership fee applies for a group of
Additional Cards on your Account, this policy
will apply when you cancel the first or oldest
Additional Card. If an Annual Membership fee
applies to Additional Cards on your Account, it is
shown on page 2 of Part 1 of the Cardmember
Agreement.

About your payments
When you must pay

You must pay no later than the Payment Due Date
to avoid a late payment fee. Each statement also
states the time and manner by which you must
make your payment for it to be credited as of the
same day it is received.

Each statement also shows a Closing Date. The
Closing Date is the last day of the billing period
covered by the statement. Each Closing Date
is about 30 days after the previous statement 's
Closing Date.

How to make payments

Make payments to us in U.S. dollars with:
• a single check drawn on a U.S. bank, or
• a single negotiable instrument clearable through
the U.S. banking system, for example a money
order, or
• an electronic payment that can be cleared
through the U.S. banking system.

your billing statement. If we receive it after that
time, we will credit the payment on the day after
we receive it.

When making a payment by mail:
• make a separate payment for each Account,
• mail your payment to the address shown on the
payment coupon on the billing statement, and
• write the Account number on your check or
negotiable instrument and include the payment
coupon.
If your payment meets the above requirements, we
will credit it to the Account as of the day we receive
it, as long as we receive it by the time disclosed in

How we apply payments and credits

If your payment does not meet the above
requirements, there may be a delay in crediting
the Account. This may result in late fees (see
How Fees Work on page 2 of Part 1).
We will not accept a payment made in a foreign
currency or a payment drawn on an account at a
bank located outside of the U.S.
If we process a late payment, a partial payment,
or a payment marked with any restrictive
language, that will have no effect on our rights
and will not change this Agreement.

Subject to applicable law, we will apply payments and credits among charges in any order we choose.

Other important information
Converting charges made in a
foreign currency

If you make a charge in a foreign currency, we will convert it into U.S. dollars on the date we or our
agents process it. Unless a particular rate is required by law, we will choose a conversion rate that is
acceptable to us for that date. The rate we use is no more than the highest official rate published by a
government agency or the highest interbank rate we identify from customary banking sources on the
conversion date or the prior business day. This rate may differ from rates that are in effect on the date of
your charge. We will bill charges converted by establishments (such as airlines) at the rates they use.

Changing your billing address

You must notify us immediately if you change the:
• mailing address to which we send billing
statements; or
• e-mail address to which we send notice that your
billing statement is available online.

Closing your Account

If you have more than one account, you need to
notify us separately for each account.
We may update your billing address if we receive
information that it has changed or is incorrect.

You may close your Account by calling us or writing to us.
If an Annual Membership fee applies, we will refund this fee if you notify us that you are voluntarily
closing your Account within 30 days of the Closing Date of the billing statement on which that fee
appears. For cancellations after this 30 day period, the Annual Membership fee is non-refundable. If
an Annual Membership fee applies to your Account, it is shown on page 1 and page 2 of Part 1 of the
Cardmember Agreement.

Cancelling or suspending your
Account

We may:
• cancel your Account,
• suspend the ability to make charges,
• cancel or suspend any feature on your Account,
and
• notify merchants that your Account has been
cancelled or suspended.
If we do any of these, you must still pay us for all
charges under the terms of this Agreement.

Version 1122676

Page 2 of 5

We may do any of these things at our discretion,
even if you pay on time and your Account is not in
default.
If your Account is cancelled, you must destroy
your cards.
We may agree to reinstate your Account after a
cancellation. If we do this, we may:
• reinstate any additional cards issued on your
Account,
• charge you any applicable annual fees, and
• charge you a fee for reinstating the Account.

About default

Collection costs
Credit reports

Sending you notices
We may contact you

About insurance products

We may consider your Account to be in default if:
If we consider your Account in default, we may:
• suspend your ability to make charges, and
• you violate a provision of this Agreement,
• cancel or suspend any feature on your
• you give us false information,
Account.
• you file for bankruptcy,
• you default under another agreement you have
with us or an affiliate,
• you become incapacitated or die, or
• we believe you are unable or unwilling to pay
your debts when due.
You agree to pay all reasonable costs, including attorneys' fees, that we incur to collect amounts you
owe.
You agree that we will obtain credit reports about you, investigate your ability to pay, and obtain
information about you from other sources including information to verify and re-verify your employment
and income. And you agree that we will use such information for any purposes (for example, marketing to
you or evaluating you for a new account), subject to applicable law.
You agree that we will give information about the Account to credit reporting agencies. We will tell a credit
reporting agency if you fail to comply with any term of this Agreement. This may have a negative impact
on your credit report.
If you believe information we have given to a credit reporting agency is incorrect, write to us at: American
Express Credit Bureau Unit, P.O. Box 981537, El Paso, TX 79998-1537. When you write to us, tell us the
specific information you believe is incorrect.
We mail you notices through the U.S. mail, postage prepaid, and address them to you at the latest billing
address on our records. Any notice that we send you this way is deemed to be given when deposited in
the U.S. mail.
Servicing and Collections
If we need to contact you to service your account or to collect amounts you owe, you authorize us (and
our affiliates, agents and contractors, such as debt collection agencies and service providers) to contact
you at any phone number or email address you provide, from which you contact us, or at which we
believe we can reach you. We may contact you in any way, such as calling, texting, emailing, sending
mobile application push notifications or using any other method of communication permitted by law. We
may contact you using an automated dialer or prerecorded messages. We may contact you on a mobile,
wireless or similar device, even if you are charged for it.
Call monitoring
We may monitor and record any calls between you and us.
We or our affiliates may tell you about insurance and non-insurance products, services or features that
may have a fee. One of our affiliates may act on behalf of a provider of these products. The affiliate may
be compensated for this. The insurance products are not offered or sold by us or on our behalf. Our
affiliates may get additional compensation when AMEX Assurance Company or another affiliate is the
insurer or reinsurer. Compensation may influence what products and providers we or our affiliates tell you
about.
We may share information about you with our affiliates so they can identify products that may interest
you. We may be compensated for this information.

How we handle electronic debits
from your checking account

Privacy Act of 1974 notice

Change the benefits
Assigning the Agreement
Assigning claims

We do not waive our rights
Governing law

Version 1122676

When you pay us by check, you authorize us to
If we do this, your payment may be deducted from
electronically deduct the amount from your bank or
your bank or other asset account on the same
other asset account.
day we receive your check. Also, you will not
We may process the check electronically by
receive that cancelled check with your bank or
transmitting to your financial institution:
asset account billing statement.
• the amount,
If we cannot collect the funds electronically, we
• the routing number,
may issue a draft against your bank or other asset
the
account
number,
and
•
account for the amount of the check.
• the check serial number.
Some federal agencies may accept the card under authority of statute. When you make charges at these
agencies, we collect certain charge information. That information may be put to routine uses, such as
processing, billing and collections. It may also be aggregated for reporting, analysis and marketing use.
Other routine uses by agencies may be published in the Federal Register.
We have the right to add, modify or delete any benefit or service of your Account at our discretion.
We may sell, transfer or assign this Agreement and your Account. We may do so at any time without
notifying you. You may not sell, assign or transfer your Account or any of your obligations under this
Agreement.
If you dispute a charge with a merchant, we may
You agree that you will not pursue any claim
credit the Account for all or part of the disputed
against the merchant for the credited amount.
charge. If we do so, you assign and transfer to us
And you must cooperate with us if we decide to
all rights and claims (excluding tort claims) against
do so.
the merchant.
We may choose to delay enforcing or to not exercise rights under this Agreement. If we do this, we do not
waive our rights to exercise or enforce them on any other occasion.
New York law and federal law govern this
We are located in New York. We hold your
Agreement and your Account. They govern without
Account in New York. We entered into this
regard to internal principles of conflicts of law.
Agreement with you in New York.

Page 3 of 5

Claims Resolution
Most customer concerns can be resolved by
calling our Customer Service Department at the
number listed on the back of your card. In the
event Customer Service is unable to resolve
a complaint to your satisfaction, this section
explains how claims can be resolved through
mediation, arbitration or litigation. It includes
an arbitration provision. You may reject the
arbitration provision by sending us written
notice within 45 days after your first card
purchase. See Your Right to Reject Arbitration
below.
For this section, you and us includes any
corporate parents, subsidiaries, affiliates or
related persons or entities. Claim means any
current or future claim, dispute or controversy
relating to your Account(s), this Agreement, or
any agreement or relationship you have or had
with us, except for the validity, enforceability
or scope of the Arbitration provision. Claim
includes but is not limited to: (1) initial claims,
counterclaims, crossclaims and third-party claims;
(2) claims based upon contract, tort, fraud,
statute, regulation, common law and equity;
(3) claims by or against any third party using
or providing any product, service or benefit in
connection with any account; and (4) claims that
arise from or relate to (a) any account created
under any of the agreements, or any balances on
any such account, (b) advertisements, promotions
or statements related to any accounts, goods or
services financed under any accounts or terms
of financing, (c) benefits and services related
to card membership (including fee-based or
free benefit programs, enrollment services and
rewards programs) and (d) your application for
any account. You may not sell, assign or transfer
a claim.
Sending a Claim Notice
Before beginning a lawsuit, mediation or
arbitration, you and we agree to send a written
notice (a claim notice) to each party against
whom a claim is asserted, in order to provide
an opportunity to resolve the claim informally or
through mediation. Go to americanexpress.com/
claim for a sample claim notice. The claim notice
must describe the claim and state the specific
relief demanded. Notice to you may be provided
by your billing statement or sent to your billing
address. Notice to us must include your name,
address and Account number and be sent to
American Express ADR c/o CT Corporation
System, 28 Liberty Street, New York, New York
10005. If the claim proceeds to arbitration, the
amount of any relief demanded in a claim notice
will not be disclosed to the arbitrator until after the
arbitrator rules.
Mediation
In mediation, a neutral mediator helps parties
resolve a claim. The mediator does not decide the
claim but helps parties reach agreement.
Before beginning mediation, you or we must
first send a claim notice. Within 30 days after
sending or receiving a claim notice, you or we
may submit the claim to JAMS (1-800-352-5267,
jamsadr.com) or the American Arbitration
Association ("AAA") (1-800-778-7879, adr.org) for
mediation. We will pay the fees of the mediator.
All mediation-related communications are
confidential, inadmissible in court and not subject
to discovery.

Version 1122676

All applicable statutes of limitation will be tolled
from the date you or we send the claim notice
until termination of the mediation. Either you or
we may terminate the mediation at any time.
The submission or failure to submit a claim to
mediation will not affect your or our right to elect
arbitration.

similarly situated.

Arbitration
You or we may elect to resolve any claim by
individual arbitration. Claims are decided by a
neutral arbitrator.
If arbitration is chosen by any party, neither
you nor we will have the right to litigate that
claim in court or have a jury trial on that
claim. Further, you and we will not have
the right to participate in a representative
capacity or as a member of any class
pertaining to any claim subject to arbitration.
Arbitration procedures are generally simpler
than the rules that apply in court, and
discovery is more limited. The arbitrator's
authority is limited to claims between you
and us alone. Claims may not be joined
or consolidated unless you and we agree
in writing. An arbitration award and any
judgment confirming it will apply only to
the specific case and cannot be used in any
other case except to enforce the award. The
arbitrator's decisions are as enforceable
as any court order and are subject to very
limited review by a court. Except as set forth
below, the arbitrator's decision will be final
and binding. Other rights you or we would
have in court may also not be available in
arbitration.

Arbitration Procedures
This Arbitration provision is governed by
the FAA. The arbitrator will apply applicable
substantive law, statutes of limitations and
privileges. The arbitrator will not apply any
federal or state rules of civil procedure or
evidence in matters relating to evidence
or discovery. Subject to the Limitations on
Arbitration, the arbitrator may otherwise award
any relief available in court. You and we agree
that the arbitration will be confidential. You
and we agree that we will not disclose the
content of the arbitration proceeding or its
outcome to anyone, but you or we may notify
any government authority of the claim as
permitted or required by law.

Initiating Arbitration
Before beginning arbitration, you or we must first
send a claim notice. Claims will be referred to
either JAMS or AAA, as selected by the party
electing arbitration. Claims will be resolved
pursuant to this Arbitration provision and the
selected organization's rules in effect when
the claim is filed, except where those rules
conflict with this Agreement. If we choose the
organization, you may select the other within
30 days after receiving notice of our selection.
Contact JAMS or AAA to begin an arbitration
or for other information. Claims also may be
referred to another arbitration organization if
you and we agree in writing or to an arbitrator
appointed pursuant to section 5 of the Federal
Arbitration Act, 9 U.S.C. §§ 1-16 (FAA).
We will not elect arbitration for any claim you
file in small claims court, so long as the claim is
individual and pending only in that court. You or
we may otherwise elect to arbitrate any claim
at any time unless it has been filed in court
and trial has begun or final judgment has been
entered. Either you or we may delay enforcing
or not exercise rights under this Arbitration
provision, including the right to arbitrate a claim,
without waiving the right to exercise or enforce
those rights.
Limitations on Arbitration
If either party elects to resolve a claim by
arbitration, that claim will be arbitrated on
an individual basis. There will be no right or
authority for any claims to be arbitrated on
a class action basis or on bases involving
claims brought in a purported representative
capacity on behalf of the general public,
other cardmembers or other persons
Page 4 of 5

Notwithstanding any other provision and
without waiving the right to appeal such
decision, if any portion of these Limitations on
Arbitration is deemed invalid or unenforceable,
then the entire Arbitration provision (other than
this sentence) will not apply.

If your claim is for $10,000 or less, you
may choose whether the arbitration will be
conducted solely on the basis of documents,
through a telephonic hearing, or by an inperson hearing. At any party's request, the
arbitrator will provide a brief written explanation
of the award. The arbitrator's award will be
final and binding, subject to each party's right
to appeal as stated in this section and/or
to challenge or appeal an arbitration award
pursuant to the FAA. To initiate an appeal, a
party must notify the arbitration organization
and all parties in writing within 35 days
after the arbitrator's award is issued. The
arbitration organization will appoint a threearbitrator panel to decide anew, by majority
vote based on written submissions, any aspect
of the decision objected to. The appeal will
otherwise proceed pursuant to the arbitration
organization's appellate rules. Judgment
upon any award may be entered in any court
having jurisdiction. At your election, arbitration
hearings will take place in the federal judicial
district of your residence.
Arbitration Fees and Costs
You will be responsible for paying your share
of any arbitration fees (including filing,
administrative, hearing or other fees), but only
up to the amount of the filing fees you would
have incurred if you had brought a claim in
court. We will be responsible for any additional
arbitration fees. At your written request, we
will consider in good faith making a temporary
advance of your share of any arbitration fees,
or paying for the reasonable fees of an expert
appointed by the arbitrator for good cause.
Additional Arbitration Awards
If the arbitrator rules in your favor for an
amount greater than any final offer we made
before the final hearing in arbitration, the
arbitrator's award will include: (1) any money to
which you are entitled, but in no case less than
$5,000; and (2) any reasonable attorneys' fees,
costs and expert and other witness fees.
Your Right to Reject Arbitration
You may reject this Arbitration provision by

sending a written rejection notice to us at:
American Express, P.O. Box 981556, El Paso,
TX 79998. Go to americanexpress.com/reject
for a sample rejection notice. Your rejection
notice must be mailed within 45 days after your
first card purchase. Your rejection notice must
state that you reject the Arbitration provision and
include your name, address, Account number
and personal signature. No one else may sign
the rejection notice. If your rejection notice
complies with these requirements, this Arbitration
provision and any other arbitration provisions
in the cardmember agreements for any other
currently open American Express accounts you
have will not apply to you, except for

Version 1122676

Corporate Card accounts and any claims subject
to pending litigation or arbitration at the time
you send your rejection notice. Rejection of
this Arbitration provision will not affect your
other rights or responsibilities under this Claims
Resolution section or the Agreement. Rejecting
this Arbitration provision will not affect your
ability to use your card or any other benefit,
product or service you may have with your
Account.
Continuation
This section will survive termination of your
Account, voluntary payment of your Account
balance, any legal proceeding to collect a debt,
any bankruptcy and any sale of your Account (in

Page 5 of 5

the case of a sale, its terms will apply to
the buyer of your Account). If any portion
of this Claims Resolution section, except
as otherwise provided in the Limitations on
Arbitration subsection, is deemed invalid
or unenforceable, it will not invalidate the
remaining portions of this Claims Resolution
section.

